j VV''4 “

,

t

IS

t

u</t?

No.

1m

I

ill, lain

SUPREME COURT OF THE UNITED STATES

Supreme Court. U.S.
piled

SEP 1 ? 2021

Yao Pone

v.
Board of County Commissioners for Calvert County.
Respondent.

On Petition for a Writ of Certiorari to
Court of Appeals of Maryland

PETITION FOR A WRIT OF CERTIORARI

Petitioner: Yao Pone,
683 Gunsmoke Trl,
Lusby, MD 20657
Telephone 240-256-0203

3

I.

Questions Presented

a. Were unjustifiable excessive fines (all of the maximum permit by the law)
imposed by the Calvert County’s Planning and zoning employees to the
Petitioner?
b. Were these unjustifiable excessive fines a plot to bankrupt the Petitioner to lose
his land?
c.

Were the Petitioner’s Constitutional Rights violated when the County tried him
twice on the same offenses?

d. Were the Petitioner’s Constitutional Rights violated when the County continued to
impose fines while obstructing access to the zoning Board of Appeals which is the
normal process of issues resolution within the County zoning and planning rules?
e.

Did the Circuit court and County government deny the Petitioner due process by
ordering the Petitioner to do work and pay penalties, when the COVID-19
pandemic made it impossible to do so?

f. Did the local government violate the 8th Amendment to the U.S. Constitution and
the 25th article of the Maryland Constitution by imposing excessive and cruel fines
which will force the Petitioner to have lien and lose his land because of the abuse
of power, racial and discriminatory bias zoning stop work violations orchestrated
by some of its employees?

I

I.

Questions Presented

I

II.

Table of Contents ....

II

III.

Table of Authorities

III

IV.

Petition for Writ of Certiorari

1

V.

Opinions Below

1

VI.

Jurisdiction ....

1

VII.

Constitutional Provisions Involved

2

VIII.

Statement of the case

3

IX.

REASONS FOR GRANTING THE WRIT

4

X.

CONCLUSION

4

XI.

INDEX OF APPENDICES

5

11

II. Table of Authorities
Cases
Aravanis V. Somerset County, 339 MD. 644, 664 A.2 888 (1995)
Austin V. United States, 509 U.S. 602 (1993)
United States V. Bajakajian, 524 U.S. 321, 334 (1998)

Statutes
Article 25 of the Maryland Declaration of Rights.

Constitutional Provisions
United Sates Constitution, Amendment VIII
United Sates Constitution, Amendment V
United Sates Constitution, Amendment XIV

Petition for Writ of Certiorari

IV.

Yao Pone, a resident of Calvert County, Maryland without counsel, respectfully
petitions this court for a writ of certiorari to review the judgement of the Court of
Appeals of Maryland PETITION DOCKET NO. 458, SEPTEMBER TERM 2020.
(Circuit Court of Calvert County case # C-04-CV-20-000187)

V.

Opinions Below

The Decisions by Maryland Court of Appeals denying Mr. Pone a petition for a
writ of certiorari to the Circuit Court for Calvert County ruling is not reported and
copy is attached as Appendix A-l.

Jurisdiction

VI.

Mr. Pone’s petition for writ of certiorari to the Maryland Court of Appeals was denied on
22 June 2021. Mr. Pone invokes this Court’s jurisdiction under 28 U.S.C. § 1257, having
timely filed this petition for a writ of certiorari within ninety days of Court of Appeals of
Maryland’s judgment.

1

VII.

Constitutional Provisions Involved

1. The Eighth Amendment (Amendment VIII) of the United States
Constitution prohibits the federal government from imposing excessive bail,
excessive fines, or cruel and unusual punishments. The Supreme Court has ruled
that the Cruel and Unusual Punishment Clause applies to the states as well as to
the federal government, but the Excessive Bail Clause has not been applied to the
states. On February 20, 2019, the Supreme Court ruled unanimously in Timbs u.
Indiana that the Excessive Fines Clause also applies to the states.

2. The Fifth Amendment (Amendment V) of the United States Constitution
Shall any person be subject for the same offense to be twice put in jeopardy of life or
limb; nor shall private property be taken for public use, without just compensation.

3. The Fourteenth Amendment (Amendment XIV) of the United States
Constitution: No State shall make or enforce any low which shall abridge the
privilege or immunities of citizens of the United States; nor shall any State deprive
any person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.

2

VIII.

Statement of the case

The case docketed in the Circuit Court of Calvert County Maryland as C04-CV20000187. On 1 October 2020 judgement (Appendix A-2) was entered at that Circuit
Court against the Petitioner for fictional zoning daily violation notices. No daily
violation notices were presented at the hearing nor to the Petitioner but one
(Appendix A-3) which amounted to $28,500.00. In fact, the Petitioner did not
understand that citation when it was rushed to him by the sheriff on 14 November
2019 prior to its filing at the District Court on 11 December 2019. That citation
presented also an incomprehensive inconsistency: it was served to the Petitioner on
14 November 2019 but the Due Date of Fine is 15 November 2019! Seriously, there
is no rule on the minimum time given to offenders to pay the fines? Are we looking
at a lawless County Zoning Office? The Petitioner was also suspicious of that
citation because he was served a similar by the sheriff on 13 September 2019
(Appendix A-4) and it turns out the citations have identical Case Number but
different fines? Do we have agent falsification of documents to cruelly punish the
Petitioner? Clearly confused, the Petitioner naively petitioned (Appendix A-5) the
District Court to combine that District case with a related case that he appealed to
the Circuit Court, case #C-04-CV-19-000432 (Appendix A-6). The petition was
denied (Appendix A-5), and the Petitioner could not and did not attend the district
hearing because of the multiple hearings related to the property were putting
burden on his job. He attended the De Novo hearing at the Circuit Court at the
height of the COVID-19 pandemic on 1 October 2020. As a black man, the Petitioner
was more concerned about his survival during these months in the year 2020 and
consequently arrived much unprepared of what the case may be about.
Nevertheless during the hearing, the Petitioner noticed that three (3) of the four (4)
stop work citations (Appendix A-2) presented were the same as the ones presented
at the Circuit Court Case C04-CV19-00432 (Appendix A-6), with fines from then
$2500.00 to now $28,500.00 matching the violation citation of Appendix A-3. Why
are the same citations being used during that hearing when they were already used
in the Case C04-CV19-00432 (Appendix A-6)? Isn’t this “The Double Jeopardy
Clause” prohibited by the Fifth Amendment of United States Constitution? Within
30 days of that hearing the Petitioner submitted a Motion of Reconsideration
(Appendix A-7) in which he mentioned that the citations were already used in
previous Case C04-CV19-00432 (Appendix A-6) and provided additionally proof
(Appendix A-8) eighteen (18) of being out the State of Maryland for military duties
during the period cited for stop work violation (Appendix A-3). The motion was
denied (Appendix A-9). The Court of Appeals of Maryland denied the Petitioner’s
Motion of Reconsideration of the Writ of Certiorari with no report (Appendix A-l).
The Petitioner’s also received a Motion to Compel Discovery in Aid of Enforcement
before he could even exhaust his constitutional right to petition for writ of certiorari
to the Supreme Court (Appendix 10); is this legally right?
3

IX.

REASONS FOR GRANTING THE WRIT

To enforce Eighth Amendment (Amendment VIII), the Fifth
Amendment (Amendment V), and the Fourteenth Amendment (Amendment
XIV) of the United States Constitution.

X.

CONCLUSION

The Petitioner asks the Court to review the alleged conduct compared to the
conspiratorially falsified fines ((Appendix A-4) and (Appendix A-4)), lawless at time
(one date between Due date and served date (Appendix A-4)) imposed and to find
them cruel, and therefore illegal per the United States Constitution.

Respectfully submitted,

20 Zi
Yao Pone

4

